Case: 20-11807

Date Filed: 08/26/2020

Page: 1 of 12

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 20-11807-A
JONATHAN LEE PAGE,
Petitioner-Appellant,
versus
SECRETARY, DEPARTMENT OF CORRECTIONS,
ATTORNEY GENERAL, STATE OF FLORIDA,
Respondents-Appellees.
Appeal from the United States District Court
for the Middle District of Florida
ORDER:
Jonathan Lee Page, a Florida prisoner serving a total sentence of 30 years’ imprisonment
for second-degree murder, attempted first-degree felony murder without a firearm, and attempted
robbery without a firearm or weapon, filed a pro se petition for writ of habeas Corpus, pursuant to
28 U.S.C. § 2254. He raised two claims, arguing that his trial counsel provided ineffective
assistance in failing to object to (1) a “defective Independent Act jury instruction,” which failed to
encompass lesser-included offenses, and (2) the inclusion of theft as a lesser-included offense of
attempted first-degree felony murder with a firearm.
The government responded that Page’s §2254 petition was untimely and should be
dismissed.

Case: 20-11807

Date Filed: 08/26/2020

Page: 2 of 12

The district court concluded that Page’s § 2254 petition was timely, but it denied the
petition on the merits because Page failed to establish that counsel had acted deficiently in failing
to object to the challenged jury instructions, or that Page had suffered prejudice. It denied his
motions for a certificate of appealability (“COA”) and leave to proceed informa pauperis (“IFP”)
on appeal.

BACKGROUND:
A Florida grand jury indicted Page and two codefendants, Christopher B. Pratt and
Vahtiece A. Kirkman, with first-degree premeditated murder of Willie Parker (Count One),
attempted first-degree murder while inflicting great bodily harm on Marvis Christian (Count Two),
and attempted robbery with a firearm while inflicting great bodily harm on Parker and Christian
(Count Three), all in violation of Florida law.
At trial, Page testified to the following. On February 28, 2006, he got into a car with
Carlos Buckner, Kirkman, and Pratt to go “joyriding.” They stopped at a park, and Page saw a car
that belonged to his friend, Parker. Page got out of the car, but before he reached Parker’s car,
Kirkman, Pratt, and Bruckner pulled out guns, which Page had not seen in the car. Page ran away
when he saw the guns and was shot, but kept running. He did not have a firearm. He denied his
involvement in Parker’s death during his first interview with Sergeant Eric Austin because he was
afraid Kirkman would do something bad to him or his family. He was agitated during the second
interview because he was trying to make Sergeant Austin understand that he was afiaid and did
not want to tell him anything about the incident due to his fear of retaliation. During the third
interview, he told Sergeant Austin what happened because he realized that, at this point, he “would
be in way deeper than I was the first time.” He told Sergeant Austin he had been “involved” in

2

Case: 20-11807

Date Filed: 08/26/2020

Page: 3 of 12

the incident because he was present at the scene of the killing. However, he was not a willing
participant in the robbery, and had no idea it was going to take place.
During closing argument, defense counsel argued that Page “did not know it was going to
be a robbery” and also did not intend for the other men to kill Parker. Counsel told the jury to
remember these facts when the trial court gave the independent-act instruction.
After closing arguments, the trial court held a charge conference, and dpjfbnse counsel did
not object to the final instructions, which the trial court gave the jury. The trial court then gave
the following jury instructions, as relevant here. The trial court instructed the jury as to the
elements that must be proved for first-degree felony murder, attempted first-degree felony murder,
attempted robbery, and robbery. It then instructed the jury that, if it found Page “guilty of the
crime of robbery then you must further determine beyond a reasonable doubt if in the course of
committing the robbery the Defendant carried some kind of weapon.” The trial court then
described the following options:
If you find that the Defendant carried a firearm in the course of committing
the robbery you should find him guilty of robbery with a firearm. If you find that
the Defendant carried a weapon that was not a firearm in the course of committing
the robbery, you should find him guilty of robbery with a weapon.
If you find that the Defendant carried no firearm or weapon in the course of
committing the robbery, but did commit the robbery, you should find him guilty
only of robbery.
It also told the jury that, if it found that “Page committed attempted robbery with a firearm,
and you also find beyond a reasonable doubt that during the commission of the crime he actually
possessed the firearm, you should find the Defendant guilty of attempted robbery with a firearm
with actual possession of a firearm.”
Next, the trial court told jurors that, “if you decide that the main accusation has not been
proven beyond a reasonable doubt you will next need to decide if the Defendant is guilty of any

3

Case: 20-11807

Date Filed: 08/26/2020

Page: 4 of 12

lessor [sic] included crime.” The trial court instructed that the lesser-included crimes of
first-degree felony murder were second-degree murder and manslaughter; the lesser-included
crime of first-degree felony murder with actual possession of a firearm was theft; and the
lesser-included crimes of attempted robbery with a firearm with actual possession of a firearm
were attempted robbery with a firearm, attempted robbery with a weapon, attempted robbery, and
theft. After describing die elements that must be proved for each lesser-included offense, the trial
court instructed the jury on what it must find to conclude that Page was a principal. The trial court
then gave the following independent-act instructions:
If you find the crime alleged was committed, an issue in this case is whether
the crime of robbery with a firearm or attempted robbery with a firearm was an
independent act of a person other than [Page].
An independent act occurs when a person other than the Defendant commits
or attempts to commit a crime, one, which the Defendant did not intend to occur,
and two, in which the Defendant did not participate, and three, which was outside
of and not a reasonably foreseeable consequence of the common design or unlawful
act contemplated by the Defendant.
If you find that the robbery with a firearm, attempted robbery with a firearm
was an independent act of Christopher B. Pratt or Vahteice A. Kirkman then you
should find Jonathan Lee Page not guilty of the crime of first degree felony murder,
attempted first degree felony murder, and attempted robbery with a firearm.
The jury found Page guilty of the lesser-included offenses of second-degree murder
(Count One), attempted first-degree felony murder without a firearm (Count Two), and attempted
robbery without a firearm or weapon (Count Three). In March 2010, the trial court sentenced Page
to life imprisonment on Count One, 30 years’ imprisonment on Count Two, and 5 years’
imprisonment on Count Three, all to be served concurrently.
Page appealed. His appellate counsel filed an Anders2 brief, seeking to withdraw from the
appeal because there were no meritorious issues. The Florida Fifth District Court of Appeal

2 Anders v. California, 386 U.S. 738 (1967).
4

Case: 20-11807

Date Filed: 08/26/2020

Page: 5 of 12

granted counsel’s Anders motion and affirmed Page’s convictions and sentences in a per curiam
decision in February 2011.
In February 2012, Page, through counsel, filed a timely Fla. R. Crim. P. 3.850 motion for
postconviction relief, the trial court denied the motion, and the Fifth District Court of Appeal
affirmed the denial in June 2013.
In November 2013, Page filed his first Florida petition for writ of habeas corpus, alleging
ineffective assistance of counsel, which the Florida Fifth District Court of Appeal dismissed.
In May 2016, Page filed his second petition for writ of habeas corpus, alleging manifest
injustice based on the use of a manslaughter-by-act jury instruction at trial, which the Florida
Supreme Court had then-recently held was incorrect and constituted a fundamental error in cases
where the defendant was convicted of second-degree murder. The Fifth District Court of Appeal
granted the petition and reversed Page’s conviction and sentence for Count One, and remanded for
a new trial on that count. However, its decision did not affect Counts Two or Three.
In November 2016, Page filed his third petition for writ of habeas corpus, alleging manifest
injustice based on the trial court’s failure to give the required “Introduction to Attempted
Homicide” instruction regarding Count Two. The Fifth District Court of Appeals denied the
petition in a March 2017 per curiam decision, and the Florida Supreme Court dismissed Page’s
request for review in May 2017.
On October 13, 2017, on remand to the trial court following the grant of his May 2016
petition for writ of habeas corpus, Page entered a plea of no contest to the charge of second-degree
murder, and the trial court adjudicated him guilty and sentenced him to a term of 20 years’
probation, to run consecutively to his 30-year total prison sentence for Counts Two and Three.
Page did not appeal the new judgment.

5

Case: 20-11807

Date Filed: 08/26/2020

Page: 6 of 12

In August 2018, Page filed a fourth petition for writ of habeas corpus, alleging manifest
injustice. First, he argued that the trial court committed a fundamental error in instructing the jury
on the independent-act defense by limiting the defense’s application to the primary offenses and
failing to advise the jury that the defense also applied to each lesser-included offense. Second, he
argued that that counsel provided ineffective assistance in failing to object to the independent-act
instruction. Third, he argued that the trial court committed a fundamental error in instructing the
jury on theft as a lesser-included offense of the charged crime of attempted first-degree murder
with actual possession of a firearm. Fourth, he argued that counsel was ineffective in failing to
object to the inclusion of theft as a lesser-included offense of Count Two. The Fifth District Court
of Appeal denied the petition on the merits in October 2018.
DISCUSSION:
Page now moves for a COA and leave to proceed IFP on his appeal from the denial of his
§ 2254 petition.
In order to obtain a COA, a petitioner must make “a substantial showing of the denial of a
constitutional right.” 28 U.S.C. § 2253(c)(2). If a state court has adjudicated a claim on the merits,
a federal court may grant habeas relief only if the decision of the state court (1) “was contrary to,
or involved an unreasonable application of, clearly established [fjederal law, as determined by the
Supreme Court,” or (2) “was based on an unreasonable determination of the facts in light of the
evidence presented in the [sjtate court proceeding.”

28 U.S.C. § 2254(dXl), (2).

The

Antiterrorism and Effective Death Penalty Act of 1996 (“AEDPA”) imposes a “highly deferential
standard for evaluating state court rulings ... and demands that state-court decisions be given the
benefit of the doubt.” Renico v. Lett, 559 U.S. 766,773 (2010) (quotation marks omitted). Thus,

6

Case: 20-11807

Date Filed: 08/26/2020

Page: 7 of 12

we review the district court’s decision de novo, but review the state habeas court’s decision with
deference. Reedv. Sec'y, Fla. Dep't of Corr., 593 F.3d 1217,1239 (11th Cir. 2010).
A state court’s decision is “contrary to” federal law if “the state court arrives at a conclusion
opposite to that reached by [the Supreme Court] on a question of law or if the state court decides
a case differently than th[e] Court has on a set of materially indistinguishable facts.” Williams v.
Taylor, 529 U.S. 362, 413 (2000). The “unreasonable application” clause permits federal habeas
relief if the state court correctly identified the governing legal principle from Supreme Court
precedent, but it unreasonably applied that principle to the facts of the petitioner’s case. Borden
v. Allen, 646 F.3d 785, 817 (11th Cir. 2011). “Importantly, for a federal habeas court to find the
state's court's application of Supreme Court precedent unreasonable, it is not enough that a state
court’s adjudication be only incorrect or erroneous; it must have been objectively unreasonable.”
Id. (quotation marks omitted). Thus, a state prisoner seeking federal habeas relief “must show that
the state court’s ruling on the claim being presented in federal court was so lacking in justification
that there was an error well understood and comprehended in existing law beyond any possibility
for fairminded disagreement.” Harrington v. Richter, 562 U.S. 86,103 (2011).
As noted above, a federal habeas court may only grant relief if a state court’s adjudication
of a claim “resulted in a decision that was based on an unreasonable determination of the facts in
light of the evidence presented in the State court proceeding.” 28 U.S.C. § 2254(d)(2).
Additionally, § 2254(e)(1) requires the Court “to presume the correctness of state courts’ factual
findings” unless the habeas petitioner rebuts that presumption “with clear and convincing
evidence.” Nejad v. Att’y Gen., State of Ga., 830 F.3d 1280,1289 (11th Cir. 2016).
The Supreme Court recently held that a federal habeas court reviewing an unexplained
state-court decision on the merits should “look through” that decision to the last related state-court

7

Case: 20-11807

Date Filed: 08/26/2020

Page: 8 of 12

decision that provides a relevant rationale and presume that the unexplained decision adopted the
same reasoning. Wilson v. Sellers, 138 S. Ct. 1188, 1193-94 (2018). The state may rebut this
presumption by presenting “convincing alternative arguments for affirmance made to the State’s
highest court” or by showing “the existence of a valid ground for affirmance that is obvious from
the state-court record.” Id. at 1196. However, “deference is due even to those state court rulings
for which no rationale or reasoning at all is given.” Meders v. Warden, Ga. Diagnostic Prison,
911 F.3d 1335,1351 (11th Cir.), cert, denied, 140 S. Ct. 394 (2019).
To succeed on a claim of ineffective assistance of counsel, a defendant must show that
(1) his counsel’s performance was deficient, and (2) the deficient performance prejudiced him.
Strickland v. Washington, 466 U.S. 668, 687 (1984). Failure to establish either prong is fatal and
makes it unnecessary to consider the other. Id at 697. Deficient performance “requires showing
that counsel made errors so serious that counsel was not functioning as the ‘counsel’ guaranteed
the defendant by the Sixth Amendment.” Id. at 687. To make such a showing, a defendant must
demonstrate that “no competent counsel would have taken the action that his counsel did take.”
United States v. Freixas, 332 F.3d 1314, 1319-20 (11th Cir. 2003) (quotation marks omitted).
There is a strong presumption that counsel “rendered adequate assistance and made all significant
decisions in the exercise of reasonable professional judgment.” Strickland, 466 U.S. at 690. As
to the prejudice prong, the defendant must show that there is a “reasonable probability that, but for
counsel’s unprofessional errors, the result of the proceeding would have been different.” Id.
at 694. A “reasonable probability” has been defined as one “sufficient to undermine confidence
in the outcome.” Id. In making the prejudice determination, the court should presume, absent a
challenge to the judgment on the ground of insufficiency of the evidence, that the judge or jury
acted according to law. Id

8

Case: 20-11807

Date Filed: 08/26/2020

Page: 9 of 12

When analyzing a claim of ineffective assistance under § 2254(d), our review is “doubly”
deferential to counsel’s performance. Harrington, 562 U.S. at 105. Thus, under § 2254(d), “the
question is not whether counsel’s actions were reasonable. The question is whether there is any
reasonable argument that counsel satisfied Strickland's deferential standard.” Id.
Claim One
In his first claim, Page argued that trial counsel provided ineffective assistance in failing
to object to an independent-act jury instruction that failed to encompass his lesser-included
offenses. Page previously raised this claim in his August 2018 petition for writ of habeas corpus,
which the Fifth District Court of Appeals denied in a per curiam decision, stating that its denial
was on the merits, but giving no further elaboration on its reasoning.
Under Florida law, the independent-act doctrine applies when codefendants previously
participated in a common plan, but one codefendant takes an action that exceeds the scope of the
original plan, while the second codefendant does not participate in that act. Ray v. State,
755 So. 2d 604,609 (Fla. 2000). In such a case, the second codefendant is exonerated from any
punishment imposed as a result of the first codefendant’s independent act. Id. The independent-act
doctrine may apply as a defense to lesser-included offenses, in addition to the charged offense. Cf.
Rodriguez v. State, 174 So. 3d 502,506 (Fla. 4th Dist. Ct. App. 2015) (holding that the trial court
committed reversible error in refusing to give an independent-act instruction as a defense to the
charged crime of first-degree murder where there was some evidence supporting the
independent-act theory and the trial court properly gave the independent-act instruction as a
defense to the lesser-included offenses of the charged first-degree murder).
Here, reasonable jurists would not debate the denial of Claim One. The trial court correctly
instructed the jury on the independent-act doctrine. Although it explicitly referred to “robbery

9

Case: 20-11807

Date Filed: 08/26/2020

Page: 10 of 12

with a firearm, attempted robbery with a firearm,” in giving the independent-act instruction, Page
has not established a reasonable probability that the outcome of his trial would have been different
if counsel had objected to the trial court’s failure to explicitly reference the lesser-included offenses
of attempted robbery without a firearm and theft in giving the independent-act instruction.
Strickland, 466 U.S. at 694. Before giving the independent-act instruction, the trial court
instructed the jury as to the elements that must be proven beyond a reasonable doubt to convict
Page of robbery or attempted robbery. Separately, it instructed the jury that, if it concluded that
he had committed the offense of robbery or attempted robbery, it must next determine whether he
actually possessed a firearm or other weapon during the course of the robbery or attempted
robbery. Finally, the district court instructed the jury as to lesser-included offenses, stating that, if
the jury did not find that the charged crime was proven beyond a reasonable doubt, it should then
decide whether the state had proven any of the lesser-included crimes beyond a reasonable doubt.
It stated that the lesser-included offenses of attempted robbery with a firearm included attempted
robbery without a firearm or weapon, and theft. With this background, it then instructed the jury
on the independent-act doctrine in accordance with Florida law.
Assuming, as we must, that the jury followed the trial court’s instructions, id, we conclude
that, in finding Page guilty of attempted robbery without a weapon, the jury first concluded that
Page had committed the offense of attempted robbery as a principal, and that the independent-act
doctrine did not exonerate him from that offense, before deciding that he did not possess a firearm
during the commission of the attempted robbery. Thus, because the jury must have concluded that
the attempted robbery, regardless of the presence of a weapon, was not an independent act of one
of Page’s codefendants based on the given instructions, the jury would have reached the same
conclusion if the trial court explicitly had instructed it that the independent-act doctrine applied to

10

Case: 20-11807

Date Filed: 08/26/2020

Page: 11 of 12

the lesser-included offense of attempted robbery without a firearm. Accordingly, Page has not
established a reasonable probability that the outcome of his trial would have been different if trial
counsel had objected to the jury instructions as given. Id. No COA is warranted on Claim One.
Claim Two
In Claim Two, Page argued that trial counsel provided ineffective assistance in failing to
object to the trial court’s inclusion of theft as a lesser-included offense of attempted first-degree
felony murder with a firearm. Page previously raised this claim in his August 2018 petition for
writ of habeas corpus, which the Florida Fifth District Court of Appeals denied.
Under Florida law, “[a] crime is not a permissive lesser-included offense unless the
allegations contained in the count of the information charging the major crime also allege all of
the elements necessary to prove the lesser included offenses.” Youmans v. State, 846 So. 2d 670,
673 (Fla. 4th Dist. Ct. App. 2003). Under Florida law, theft is a lesser-included offense of robbery.
Ingram v. State, 928 So. 2d 1262, 1263 (Fla. 4th Dist. Ct. App. 2006).

Theft is also a

lesser-included offense of attempted robbery. See Parrish v. State, 736 So. 2d 752, 753
(Fla. 2d Dist. Ct. App. 1999) (holding that the trial court erred in failing to instruct the jury on petit
theft as a lesser-included offense of robbery where the defendant was charged with attempted
robbery).
Here, Page’s attempted felony-murder conviction was predicated on attempted robbery.
Because all of the elements of the underlying felony—here, attempted robbery—must be proven
to convict a defendant of attempted first-degree felony murder, Fla. Stat. Ann. § 782.051, all of
the elements of theft, the lesser-included offense of attempted robbery, must also necessarily be
proven, see Parrish, 736 So. 2d at 753. Accordingly, the theft instruction was proper, see
Youmans, 846 So. 2d at 673, and trial counsel did not perform deficiently in failing to object to the

11

Case: 20-11807

Date Filed: 08/26/2020

Page: 12 of 12

inclusion of theft as a lesser-included offense of Count Two, Strickland, 466 U.S. at 687, 697,
No COA is warranted on Claim Two.
Conclusion:
In light of the above, Page’s motion for a COA is DENIED. His motion for leave to
proceed IFP is DENIED AS MOOT.

^totSdstatSci

12

USCA11 Case: 20-11807

Date Filed: 10/13/2020

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 20-11807-A
JONATHAN LEE PAGE,
Petitioner-Appellant,
versus

SECRETARY, DEPARTMENT OF CORRECTIONS,
ATTORNEY GENERAL, STATE OF FLORIDA,
Respondents-Appellees.
Appeal from the United States District Court
for the Middle District of Florida
Before: GRANT and LAGOA, Circuit Judges.
BY THE COURT:
Jonathan Lee Page has filed a motion for reconsideration, pursuant to 11th Cir. R. 22-1(c)
and 27-2, of the August 26, 2020, order denying him a certificate of appealability and leave to
proceed on appeal in forma pauperis in his appeal from the denial of his underlying habeas corpus
petition, 28 U.S.C. § 2254. Upon review, Page’s motion for reconsideration is DENIED because
he has offered no new evidence or arguments of merit to warrant relief.

Case 6:18-cv-02016-PGB-EJK Document 23 Filed 04/13/20 Page 1 of 10 PagelD 2208

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
ORLANDO DIVISION

JONATHAN LEE PAGE,
Petitioner,
v.

Case No: 6:18-cv-2016-Orl-40EJK

SECRETARY, DEPARTMENT OF
CORRECTIONS and ATTORNEY
GENERAL, STATE OF FLORIDA,
Respondents.

ORDER
This cause is before the Court on the Petition for Writ of Habeas Corpus
("Petition," Doc. 1) filed by Petitioner pursuant to 28 U.S.C. § 2254. Petitioner also filed
a supporting Memorandum of Law (Doc. 2). Respondents filed a Response to Petition
("Response," Doc. 12) and a Supplemental Response to Petition (Doc. 19) in compliance
with this Court's instructions. Petitioner filed a Reply (Doc. 14), an Amended Reply (Doc.
17), and a Second Amended Reply (Doc. 22). For the following reasons, the Petition is
denied.
I.

Procedural Background

Petitioner and two other individuals were charged by indictment with first degree
premeditated murder, attempted first degree felony murder while inflicting great bodily
harm, and attempted robbery with a firearm while inflicting great bodily harm or death.
(Doc. 13-1 at 77-79). The jury found Petitioner guilty of second degree murder (Count

Case 6:18-cv-02016-PGB-EJK Document 23 Filed 04/13/20 Page 2 of 10 PagelD 2209

One), attempted first degree felony murder (no firearm) (Count Two), and attempted
robbery (no weapon or firearm) (Count Three). (Id. at 338-40).
On March 5, 2010, the trial court adjudicated Petitioner guilty of the crimes and
sentenced him as follows: life imprisonment as to Count One, thirty years as to Count
Two, and five years as to Count Three, with the sentences to run concurrently. (Id. at 33637, 401-06). Petitioner filed a direct appeal, and Florida's Fifth District Court of Appeal
("Fifth DCA") affirmed per curiam on February 15, 2011. (Doc. 13-2 at 955). The mandate
issued on March 9, 2011. (Id. at 957).
On February 29, 2012, Petitioner, through counsel, filed a motion for
postconviction relief pursuant to Florida Rule of Criminal Procedure 3.850, which the trial
court denied on January 7, 2013. (Id. at 959-1032, Doc. 13-3 at 1-18). Petitioner appealed
the denial, and, on June 25, 2013, the Fifth DCA affirmed the denial per curiam. (Id. at
112). The mandate issued on September 4, 2013. (Id. at 114).
On November 1, 2013, Petitioner filed a petition for writ of habeas corpus alleging
ineffective assistance of appellate counsel, which the Fifth DCA dismissed on December
12,2013. (Id. at 115-41).1

1 Unless otherwise noted, the pleadings filed by Petitioner after the conclusion of
the direct appeal were pro se. References to the filing date of those pleadings shall be the
filing date under the mailbox rule. See Adams v. United States, 173 F.3d 1339,1341 (11th
Cir. 1999) (under the "mailbox rule," a pro se prisoner's motion to vacate, set aside, or
correct sentence was filed on the date that he signed, executed, and delivered his petition
to prison authorities for mailing).
2

Case 6:18-cv-02016-PGB-EJK Document 23 Filed 04/13/20 Page 3 of 10 PagelD 2210

On May 24, 2016, Petitioner filed a petition for writ of habeas corpus alleging
manifest injustice. (Id. at 153-66). On September 30, 2016, the Fifth DCA granted the
petition in that Petitioner's conviction and sentence for second degree murder were
reversed and remanded for a new trial. (Id. at 180-86). Petitioner's convictions and
sentences for attempted first degree murder and attempted robbery were "not affected
by this opinion." (Id. at 185).
On November 4, 2016, Petitioner filed a second petition for writ of habeas corpus,
which the Fifth DCA denied on March 9, 2017. (Id. at 190-98, 265). The Supreme Court
of Florida dismissed Petitioner's request for review on May 4, 2017. (Id. at 296).
On October 13,2017, Petitioner entered a plea of no content to the charge of second
degree murder, and he was adjudicated guilty and sentenced to probation for a term of
20 years, to run consecutively to his thirty year sentence of imprisonment. (Doc. 20 at 411).
On August 3, 2018, Petitioner filed a third petition for writ of habeas corpus, which
the Fifth DCA denied on October 4, 2018. (Doc. 13-3 at 298-308; Doc. 13-4 at 1-5, 23). The
Petition was filed on November 13, 2018.2
II.
A.

Legal Standards

Standard of Review Under the Antiterrorism Effective Death Penalty Act
("AEDPA")

2 The Court finds that the Petition is timely based on the date of the resentencing
of the second degree murder charge.
3

Case 6:18-cv-02016-PGB-EJK Document 23 Filed 04/13/20 Page 4 of 10 PagelD 2211

The AEDPA governs the Petition. Under the AEDPA, if a claim was adjudicated
on the merits in state court, habeas corpus relief can only be granted if the state court's
adjudication results in one of two outcomes. It must have either "resulted in a decision
that was contrary to, or involved an unreasonable application of, clearly established
federal law, as determined by the Supreme Court of the United States," or "resulted in a
decision that was based on an unreasonable determination of the facts in light of the
evidence presented in the state court proceeding." 28 U.S.C. § 2254(d)(1) and (2).
The Supreme Court has stated that a "state-court decision is contrary to this
Court's clearly established precedents if it applies a rule that contradicts the governing
law set forth in our cases, or if it confronts a set of facts that is materially indistinguishable
from a decision of this Court but reaches a different result. Brown v. Payton, 544 U.S. 133,
141 (2005). Moreover, a "state-court decision involves an unreasonable application of this
Court's clearly established precedents if the state court applies this Court's precedents to
the facts in an objectively unreasonable manner. Id. Section 2254(d) creates a "difficult
to meet and highly deferential standard for evaluating state-court rulings, which
demands that state-court decisions be given the benefit of the doubt." Cullen v. Pinholster,
563 U.S. 170,181 (2011) (citations omitted) (quotations omitted).
B.

Standard for Ineffective Assistance of Counsel

The United States Supreme Court in Strickland v. Washington, 466 U.S. 668 (1984),
established a two-part test for determining whether a convicted person is entitled to relief
on the ground that his counsel rendered ineffective assistance: (1) whether counsel's
4

Case 6:18-cv-02016-PGB-EJK Document 23 Filed 04/13/20 Page 5 of 10 PagelD 2212

performance was deficient and "fell below an objective standard of reasonableness"; and
(2) whether the deficient performance prejudiced the defense.3

Id. at 687-88. A court

must adhere to a strong presumption that counsel's conduct falls within the wide range
of reasonable professional assistance. Id. at 689-90. "Thus, a court deciding an actual
ineffectiveness claim must judge the reasonableness of counsel's challenged conduct on
the facts of the particular case, viewed as of the time of counsel's conduct." Id. at 690;
Gates v. Zant, 863 F.2d 1492,1497 (11th Cir. 1989).
Because "[t]he standards created by Strickland and § 2254(d) are both highly
deferential, it follows that when the two apply in tandem, review is doubly so." Morton
v. Sec'y, Fla. Dept. ofCorr., 684 F.3d 1157,1167 (11thCir. 2012) (citation omitted) (quotation
omitted). Under § 2254(d), "the question is not whether counsel's actions were reasonable
[but] whether there is any reasonable argument that counsel satisfied Strickland 's
deferential standard." Harrington v. Richter, 131 S. Ct. 770, 788 (2011). As both prongs of
the Strickland test must be satisfied to establish a constitutional violation, the failure to
satisfy either prong requires that an ineffective assistance claim be denied. Strickland, 466
U.S. at 700.

3 In Lockhart v. Fretioell, 506 U.S. 364, 372 (1993), the United States Supreme Court
clarified that the prejudice prong of the test does not focus solely on mere outcome
determination; rather, to establish prejudice, a criminal defendant must show that
counsel's deficient representation rendered the result of the trial fundamentally unfair or
unreliable.
5

Case 6:18-cv-02016-PGB-EJK Document 23 Filed 04/13/20 Page 6 of 10 PagelD 2213

III.
A.

Analysis

Claim One

Petitioner asserts that trial counsel was ineffective for failing to "object during jury
charge conference to defective independent act jury instruction which failed to list lesser
includeds [sic] in conjunction." (Doc. 1 at 5). He contends that the jury was instructed as
to the independent act defense but that the trial court "limited its applicability to the
charged primary offenses in that the court failed to advise the jury that the
instruction/defense does apply in conjunction to the lesser included offense contained
within the primary offenses." (Doc. 2 at 8). This claim was raised in Petitioner's third
petition for writ of habeas corpus, which the Fifth DCA denied. (Doc. 13-3 at 301).
The independent act doctrine was discussed by the Supreme Court of Florida in
Ray v. State, 755 So. 2d 604, 609 (Fla. 2000),
The "independent act" doctrine arises when one cofelon, who previously
participated in a common plan, does not participate in acts committed by
his cofelon, "which fall outside of, and are foreign to, the common design
of the original collaboration." Dell v. State, 661 So.2d 1305, 1306 (Fla. 3d
DCA 1995) (quoting Ward v. State, 568 So.2d 452 (Fla. 3d DCA 1990)). Under
these limited circumstances, a defendant whose cofelon exceeds the scope
of the original plan is exonerated from any punishment imposed as a result
of the independent act. Id. See also Parker v. State, 458 So.2d 750 (Fla.1984).
Where, however, the defendant was a willing participant in the underlying
felony and the murder resulted from forces which they set in motion, no
independent act instruction is appropriate. See Lovette v. State, 636 So.2d
1304 (Fla.1994); Perez v. State, 711 So.2d 1215 (Fla. 3d DCA), review denied,
728 So.2d 204 (Fla.1998), and cert, denied, 526 U.S. 1120,119 S. Ct. 1772,143
L.Ed.2d 801 (1999); State v. Amaro, 436 So.2d 1056 (Fla. 2d DCA 1983).

6

Case 6:18-cv-02016-PGB-EJK Document 23 Filed 04/13/20 Page 7 of 10 PagelD 2214

In the present case, the trial court gave an independent act instruction to the jury:
"If you find the crime alleged was committed an issue in this case is whether the crime of
robbery with a firearm or attempted robbery with a firearm was an independent act of a
person other than the Defendant." (Doc. 13-2 at 888-89). The trial court subsequently
instructed the jury that "[i]f you find that the robbery with a firearm, attempted robbery
with a firearm was an independent act of Christopher B. Pratt or Vahteice A. Kirkman
then you should find Jonathan Lee Page not guilty of the crime of first degree felony
murder, attempted first degree felony murder, and attempted robbery with a firearm."
(Id. at 889).
^ Petitioner was convicted of the primary offenses of attempted first degree and
attempted robbery. The jury clearly did not find that those crimes were the independent
acts of another person. As to the first degree murder charge, Petitioner has not shown
that it was necessary for the trial court to provide the jury with an independent act
instruction with regard to the lesser included offenses, which were second degree murder
and manslaughter.
In sum, Petitioner has failed to demonstrate that the independent act instruction
provided to the jury was improper or in any manner deficient or that the jury should
have been provided with an independent act instruction with regard to any lesser
included offenses. Further, in light of the evidence presented at trial, Petitioner has failed
to show that the outcome of his trial would have been different if the trial court had
provided an independent act jury instruction on the lesser included offenses.

(Z>

Case 6:18-cv-02016-PGB-EJK Document 23 Filed 04/13/20 Page 8 of 10 PagelD 2215

Under the circumstances, Petitioner has failed to demonstrate that counsel acted
deficiently with regard to this matter or that he sustained prejudice. As such, Petitioner
has failed to demonstrate that the state court's decision rejecting his claim was contrary
to, or involved an unreasonable application of, clearly established federal law, as
determined by the Supreme Court of the United States. Applying the AEDPA's
deferential standard, Claim One is denied.
B.

Claim Two

Petitioner contends that counsel was ineffective for failing "to object to theft as a
lesser included offense of att first degree felony murder with a firearm during jury charge
conference." (Doc. 1 at 7). He claims that the "theft instruction presented confusion that
reached down to the validity of what the jury must consider to convict." (Doc. 2 at 9-10).
This claim was raised in Petitioner's third petition for writ of habeas corpus, which the
Fifth DCA denied. (Doc. 13-4 at 1).
^ As to Count Two of the indictment, the verdict form provided the following
options: (attempted first degree felony mur def with actual possession' of a firearm,
attempted first degree felony murder, theft, and not guilty. (Doc. 13-1 at 339). The felony
in this case was robbery, and theft is a lesser included offense of robbery. Ingram v. State,
928 So. 2d 1262,1263 (Fla. 4th DCA 2006) (theft is a permissive lesser included offense of
robbery with a firearm or deadly weapon.). Thus, it was proper to include theft as a lesser
include offense. In addition, Petitioner has failed to demonstrate how he was prejudiced

i

Case 6:18-cv-02016-PGB-EJK Document 23 Filed 04/13/20 Page 9 of 10 PagelD 2216

by the inclusion of theft as a lesser included offense, which permitted the jury to exercise
leniency.
Under the circumstances, Petitioner has failed to demonstrate that counsel acted
deficiently with regard to this matter or that he sustained prejudice. As such, Petitioner
has failed to demonstrate that the state court's decision rejecting his claim was contrary
to, or involved an unreasonable application of, clearly established federal law, as
determined by the Supreme Court of the United States. Applying the AEDPA's
deferential standard, Claim Two is denied.
Allegations not specifically addressed herein are without merit.
IV.

Certificate of Appealability

This Court should grant an application for a certificate of appealability only if the
petitioner makes "a substantial showing of the denial of a constitutional right." 28 U.S.C.
2253(c)(2). To make such a showing "[t]he petitioner must demonstrate that reasonable
jurists would find the district court's assessment of the constitutional claims debatable or
wrong." Slack v. McDaniel, 529 U.S. 473,484 (2000); see also Lamarca v. Sec'y, Dep't ofCorr.,
568 F.3d 929, 934 (11th Cir. 2009). However, the petitioner need not show that the appeal
will succeed. Miller-El v. Cockrell, 537 U.S. 322, 337 (2003).
Petitioner fails to demonstrate that reasonable jurists would find the district
court's assessment of the constitutional claims debatable or wrong. Moreover, Petitioner
cannot show that jurists of reason would find this Court's procedural rulings debatable.
Petitioner fails to make a substantial showing of the denial of a constitutional right. Thus,
9

,

‘

Case 6:18-cv-02016-PGB-EJK Document 23 Filed 04/13/20 Page 10 of 10 PagelD 2217

the Court will deny Petitioner a certificate of appealability.
V.

Conclusion

Accordingly, it is ORDERED and ADJUDGED as follows:
1.

The Petition for Writ of Habeas Corpus (Doc. 1) is DENIED.

2.

This case is DISMISSED with prejudice.

3.

Petitioner is DENIED a Certificate of Appealability in this case.

4.

The Clerk of the Court is directed to enter judgment in favor of Respondents

and to close this case.
DONE and ORDERED in Orlando, Florida on April 13, 2020.

PAULG.fflf*Off
UNITED STATE5WISTRICT JUDGE

t

Copies furnished to:
Counsel of Record
Unrepresented Party

10

------- -

IN THE SUPREME COURT OF THE UNITED STATES

JONATHAN PAGE,
Petitioner,
vs.

Case No:

MARK INCH, Scr y FDC,
Respondent,

PROOF OF SERVICE
Petitioner, confined in an institution, hereby certifies that the following Petition for Writ of
Certiorari and Appendix were deposited in the institution's internal mail system for mailing on
December

, 2020, to the Clerk of the Supreme Court of the United States, One First Street NE,

Washington, DC 20543. First-class postage is being prepaid either by me or by the institution on my
behalf. Further, the Petition and Appendix are also being mailed to Respondent, the Office of the
Attorney General, State of Florida, 444 Seabreeze Boulevard Suite 500, Daytona Beach, Florida 32118.
I declare under penalty of peijury that the foregoing is true and correct (See 28 U.S.C. §1746).

Petitioner:

^Snathan Page/
DC# E39833^^
Okaloosa Correctional Institution
3189 Colonel Greg Malloy Road
Crestview, Florida 32539-6708
Signed on

